V

12-53
NO.
IN THE
SUPREME COURT OF THE UNITED STATES
<>
CHARLES LAVEL STRINGER,
PETITIONER
VS.
STORESONLINE INC AND CREXENDO, INC.,
RESPONDENTS

<>
On Petition For Writ of Certiorari
To The Supreme Court of Mississippi

FILED
FEB 09 2021
OFFICE OF THE CLERK
SUPREME COURT.US.

<>
PETITION FOR A WRIT OF CERTIORARI
HON.CHARLES LAVEL STRINGER
LEGAL ASSISTANT/PARALEGAL
136 KIMBROUGH DRIVE
JACKSON, MS 39204
(601)-373-3656

'4

QUESTIONS PRESENTED FOR REVIEW

1
DID THE MISSISSIPPI SUPRME COURT BREAK STATE LAW
WHEN IT WOULD NOT APPLY THE MANDATORY
LANGUAGE IN THE USE OF THE WORD OF SHALL IN
MISSISSIPPI CODE OF ANN & 11-1-17 IN VIOLATION OF
28 U.S.C.A. & 1654, IN VIOLATION OF PRO SE PETITIONER
FIRST, SIXTH AND FOURTEENTH AMEND OF THE
UNITED STATES CONSTITITUTION.
2
THE CHANCERY COURT DENIED THE APPELLANT/
PLAINTIFF THE RIGHT TO REPRESENT HIMSELF IN
CIVIL ACTION AND TO BE TREATED THE SAME
OTHER APPELLANT/PLAINTIFF WHO HAVE COME
BEFORE THE CHANCERY COURT OM DEFAULT
JUDGMENT IN VIOLATION OF 28 & U.S.C.A. & 1654.
AND IN VIOLATION OF THE SIX AND FOURTEENTH
AMENDMENT OF THE UNITED STATES
CONSTITUTION.
3
THE CHANCERY COURT ERRED CITING BAKER & McENZIE
LLP V. EVENS. 123 So. 3d 387 IS NOT ONE DIGEST KEY
IN THAT CASE THAT ADDRESS A RULE 12(f) MOTION AND
IT STATES COMPLAINTS FILED IN OTHER STATES UNDER
DIFFERENT LEGAL CLAIMS NOT COLLATERAL ESTOPPEL.
4
THE CHANCERY COURT JUDGE ERRED IN
NOT GRANTING PLAINTIFF MOTION TO STRIKE
ANSWER AND AFFIRMATIVE DEFENDSES UNDER
MRCP. 12(f).

.<

5
THE CHANCERY COURT JUDGE ERRED IN NOT
GRANTING PLAINTIFF SECOND MOTION TO
STRIKE MOTION TO DISMISS UNDER MRCP 12(f).
TABLE OF CONTENTS
QUESTION PRESENTED FOR REIEW
TABLE OF AUTHORITIES......................

i
iv-v

OPINION BELOW..................................

li

JURISDICTION.....................................

1

CONSTITUTIONAL AND STATUTORY
PROVISION INVOLVED..........................

2

STATEMENT OF THE CASE...................

2-8

REASONS FOR GRANTING WRIT OF
CERTIORARI...........................................

8-23

CONCLUSTION......................................

23

INDEX OF APPENDICE
Appendix "A" is the Opinion of the Mississippi
Supreme Court Dismiss of the Appellant Appeal on June
12th, 2020.
Appendix "B" is the Order of Court, in Chancery Court of
First Judicial District of Hinds County Mississippi, denying
Second Amended Motion to Alter or Amend Judgment,
dated April 25th, 2019.
Appendix "C" is the Order of Recusal of Chancery
Judge Patricia D. Wise, dated March 23rd, 2016.
Appendix "D" is the Order by Mississippi Supreme Court
of Mississippi, dated August 29th, 2018.

ii

Appendix "E" is the Order of the Court, on Amended
Motion to Alter or Amend Judgment, dated November 7th,
2017, signed by Chancery Judge Dewayne Thomas.
Appendix "F" is a Order issued by Jess H. Diskinson,
Presiding Justice of the Mississippi Supreme Court, dated
August 22nd, 2017.
Appendix "G" is a Order of the Court, on motion to
Alter or Amend Judgment, signed by Chancery Judge
Dewayne Thomas, on September 13th, 2016.
Appendix "H" is a Order of Dismissal, signed by Chancellor
Judge Dewayne Thomas, on September 1st, 2016.
Appendix "I" is a Order issued by Justice Robert P.
Chamberlin of the Mississippi Supreme Court on
November 14th, 2018.
Appendix "J" is the Constitutional and Statutory
Provisions.
TABLE OF AUTHORITES
CASES

PAGES

ALABAMA V. BOZEMAN , 121 S. Ct. 2079
(2001)at 2085.......................................

9

ANDREWS V. BECHLTEL POWER CORP. .
780 F.2d 124,

16

BAKER & McKENZIE LLP V. EVENS 123 So.
. 2d 387(Miss.2013),

19, 20, 21

BHTT ENTENTERTAINMENT.INCORPORATED, V.
BRICLHOUS CATE & LOUNGE. ETAL.
858 F. 3d 310,

9, 10, 13

BOARD OF PARDONS V. ALLEN. 107 S.
Ct. 2415,

8
iii

L-'

COAHOMA COUNTY BANK &
TRUST CO. V. FEINBERG. 128 So.

2d 562,.........................................

10,25

DOWDLE BUTANE GAS CO. INC. V.
MOORE 831 so. 2d 1124(Miss.2002),... .26
DYASTEEL V. AZTEC INDUSTRIES 611 So.
So.2d 977

14

ESTATE OF LEWIS. 135 So. 3d 202,...

10

GEORGE B. GLIMORE CO. V. GARRETT.
582 So. 2d 387......................

22, 25

JULES JORDON VIDEO: INC. V.
144942 CONAOLO. INC.

617 F.3d 1146(9th,Cir.2010)

13,14

KINGDOMWARE TECHNOLOGIES. INC V.
U.S.. 136 S. Ct. 1963(2015) at 1977,... 8, 9
LIPTION INDUSTRIES INC. V. RALSTON
PURINA CO. 670 F. 2d 1024,............. 23, 25
MARSHALL V. BAGGETT 616 F.3d 849
(8th, Cir.2010)....................................

20

NATIONAL SHOPMEN PENSION FUND
V. RUSSELL. 283 F.R.D 16.... 9,12,13, 17
SHAKMAN ET ALV. DEMOCRATIC
ORGONIZATION OF COOK
533 F. 2d 344.
19,22, 24
SOUTHE V. UNITED STATES.
40 F.R.D. 374

11, 25

STRINGER V. AMERICAN BANKERS
INSURANCE COMPANY OF FLORIDA .

822 So. 2d 1011

9,17

iv

STRINGER V. CAMPBELL. ET AL.
30 F. 3d 1492

17

STRINGER V. McADORY. 42 F. 3d 642 ... .17
STRINGER V. PETERS. 464 Fed.
Appx. 309

15

STRINGER V. STATE. 627 So. 2d 326 .. 15,16
TRAGUTH V. ZUCK. 710 F. 2d 90(1983).. 15
WILLAMS V. WISQN'S MOBILE
HOMESERV.. 887 So. 2d 830

11

OTHER
U.S. CONSTITUTION I.......

i
13,18, 21, 23, 26
13, 18, 21, 23, 26

U.S. CONSTITUTION VI . ..
U.S. CONSTITUTION XIV ..
STATUTUES AND RULES
28 U.S.C. & 1254(1).........
28 U.S.C. & 1654.............
Fed R. Civ. P. 8(d).............
Miss. Code Ann. & 11-1-17
M.R.C.P. 8(d)...................
M.R.C.P. 12(b)(6).............
M.R.C.P. 12(f)...................
M.R.C.P. 59(e)..................
Miss. R. Evid. 902.............
Miss. R. Evid. 1001...........
Miss. R. Evid. 1002...........
Miss. Civil Proc. 55(b).......

1
13,18, 21, 23, 26
..............22, 24
7,8
23, 25
18
22, 24
10
22
22
22
14

v

•s.

PETITION FOR A WRIT OF CERTIORARI
Petitioner Charles L. Stringer prays that a writ of
certiorari be issued to review the judgment and Order of
the Mississippi Supreme Court for violating State Law
and completely not addressing the issues raised on
appeal that being by not applying the case law and state
statute cited and rules of civil procedure cited by
petitioner in his brief. Which is a violation of petitioner
right under the First, sixth and Fourteenth Amendment
of United States Constitution.
OPINION BELOW
A copy of the Mississippi Supreme Court Order
Appendix" A". The Order Dismissing Petitioner Petition
for Rehearing. A copy of the Mississippi Supreme Court
Order dismissing the Petitioner Appellant Brief is
attached as Appendix "B". The September 1st, 2016 is the
Chancery Judge Dewayne Thomas Order of dismissal and
is attached as Appendix "C". The September 13th, 2016,
denying Motion to Alter or Amend is attached as
Appendix "D". That the November 7th, 2017 Order by
Judge Dewayne Thomas denying Petitioner Amended
Alter or Amend Judgment as Appendix "E". That the April
25th, 2019, Order by Judge Dewayne Thomas denying
Second Amended Alter or Amend Judgment is attached
as Appendix "F".
JURISDICTION
The Mississippi Supreme Court Order No. 2019-CP01361, filed with the clerk on June 12th, 2020. The
Mississippi Court Order denying Petition for rehearing
No. 2019-CP-01362, on September 24th, 2020. The Court
jurisdiction is invoked under Title 28 U.S.C. & 1254(1).
1
CONSTITUTIONAL AND STATUTORY
1

PROCISIONS INVOLVED
Amendment One of the United States
Constitution.
Amendment Four of the United States
Constitution.
Amendment Six of the United States Constitution.
Amendment Fourteen United States Constitution.
28 U.S.C.A. & 1654
Mississippi Code Ann. & 11-1-17.
STATEMENT OF THE CASE
That on November 12th, 2015, the Appellant/Plaintiff filed
a civil action for Fraud and Unjust Enrichment in the
Chancery Court of the First Judicial District of Hinds
County, Mississippi. That also on that same day November
12th, 2015, Appellant/Plaintiff filed a copy summons,
pursuant to Rule 4©(3) of the Mississippi Rules of Civil
Procedure. That on January 5th, 2016, Appellant/Plaintiff
filed Request for Default Judgment, Affidavit for Default
Judgment, and Affidavit as to Military Service. That on
January 6th, 2016, the defendants counsel issued a Notice
of Appearance by Attorney Christopher Weldy. On January
12th, 2016, the Appellant/Plaintiff files his first Motion for
Permanent Injunction. Again, on January 12th, 2016, the
Appellant/Plaintiff files his Second Motion for Permanent
Injunction. That on February 2nd, 2016, the
Appellant/Plaintiff files his First Notice of a Hearing, before
Chancery Judge Patricia D. Wise, on March 23rd, 2016. That
the defendants counsel on March 11th, 2016 files Answer
to Complaint, and a Motion to Dismiss and a Notice of
Hearing, set at the same time and date as the
Appellant/Plaintiff Notice of Hearing. That on March 17th,
2016, Appellant/Plaintiff file his Response to Defendants
2

Motion to Dismiss. That on March 23rd, 2016, After
Appellant/Plaintiff hearing before Chancery Judge Patricia
D. Wise, she issued a Order of Recusal. On April 19th, 2016,
Appellant/Plaintiff files his Motion to Strike Motion to
Dismiss and his Motion to Strike Answer and Affirmative
Defenses. On May 5th, 20116, the Appellant files his
second Notice of a Hearing before Chancery Judge
Dewayne Thomas, on June 1st, 2016, on his two motions
for Permanent Injunction. On May 10th, 2016, the
defendants counsel files his Second Notice of a Hearing,
set at the same date and time as the Appellant/Plaintiff
hearing. On June 1st, 2016, the Appellant/Plaintiff file his
motion for Demand for Judgment. On June 21st, 2016
Appellant/Plaintiff, files his Statement of Facts, as request
by Chancery Judge Dewayne Thomas on June 1st, 2016. On
September 1st, 2016, the Chancery Judge Dewayne
Thomas issues his Order of Dismissal. On September 8th,
2016, Appellant/Plaintiff files his Motion to Alter or Amend
Judgment. On September 13th, 2016, the Chancery Judge
Dewayne Thomas issues his Order denying Motion to Alter
or Amend Judgment. On September 29th, 2016, the
Appellant/Plaintiff files Notice of Appeal. On October 12th,
2016, Notice of Appeal file with the Supreme Court clerk.
On October 12th, 2016, Final Judgment filed with the
Supreme Court Clerk. On October 12th, 2016, Trial Court
Order received and filed with the Supreme Court Clerk. On
October 12th, 2016, Appearance Form Issued for Attorney
Christopher Jackson Weldy. On October 17th, 2016,
Appearance Form received Christopher Jackson Weldy. On
October 24th, 2016, Deficiency Notice letter Charles Lavel
Stringer. On October 27th, 2016, Motion to Instruct the
Chancery Court to address the Facts. On October 27th,
2016 Motion to Instruct Counsel to address the Facts. On
November 3rd, 2016, the Appellant/Plaintiff files Certificate
of Compliance under Rule 11(B)(1). On November 3rd,
3

2016, Court Reporter Transcript due date issued.
November 15th, 2016, Order Entered on Motion. On
December 27th, 2016, Transcript, Certificate of Compliance
under Rule 11(D)(2) and Certificate of the Clerk are filed.
On January 5th, 20117, Motion to Correct Transcripts is
filed with the Supreme Court clerk. On January 27th, 2017,
Order Entered on Motion. On January 31st, 2017, Record
filed. On January 31st, 2017, Briefing Schedule Notice
Letter. On February 7th, 2017, Motion for enlargement of
time to File Appellant Brief. On February 7th, clerk Notice
Issued on Motion. On February 7th, 2017, Motion for Clerk
Request transmission All Document and Transcripts. On
March 14th, 2017, Order entered on Motion. On March
24th, 2017, Appellant's Brief file on behalf of Charles Lavel
Stringer. On March 24th, 2017, Record Excerpts filed on
behalf of Charles Lavel Stringer. On March 24th, 2017, Brief
Notification Letter. On March 24th, 2017, Brief NoCompliance Letter, Charles Stringer. On April 3rd, 2017,
Motion to Dismiss Appeal. On April 5th,
2017, Response to Motion to Dismiss Appeal and Motion
to Strake. On April 20th, 2017, Motion for Stay and
Enlargement of Time to Appellee Brief. Om May 2nd, 2017,
Order Entered Granting Motion to Stay and Enlargement
of Time to File Appellee Brief (Some 12 days after
Appellee's Brief was due!) On August 22nd, 2017, some one
hundred and fifty days after Appellant Brief Justice Jess H.
Dickinson Dismisses Appeal and denies Appellant Motion
to Strake Motion to Dismiss. On October 5th, the
Appellant/Plaintiff pro se files Amended Motion to Alter or
Amend Judgment. On October 6th, 2017,
Appellees/Defendant counsel files his Response to
Amended Motion to Alter or amend Judgment. On
October 12th, 2017, the Appellant/Plaintiff pro se filed his
Reply to Alter or Amend Judgment, stating that the
Chancery Judge Dewayne Thomas had failed to use the
4

word Final in his final order denying his first Motion to
Alter or Amend Judgment. On November 7th, 2017, the
Chancery Judge Dewayne Thomas issue a Order denying
Appellant Amended Motion to Alter or Amend Judgment
without ever addressing his not using the word Final his
first order and in his second, Order. On November 30th,
2017, the Appellant/Plaintiff filed his Second Notice of
Appeal. On February 8th, 2018, the Appellant filed his
second Motion of Facts of the Trial Court., requesting that
this Court issue a Order to the Chancery Court to address
the fact he did not address the issue of him not using the
word final in his First and Second Order denying Motion to
Alter or Amend Judgment. On March 15th, a panel Kitchen,
P.J.Beam and Isshee, JJ issued a Order denying Appellant
Motion of Facts of the Trial Court, dealing with the
Chancery Court Judge Dewayne Thomas not using the
word final in his Order denying Amended Motion to Alter
or Amend Judgment. On May 3rd, 2018, the Appellant filed
his Second Appellant brief. On May 31st, 2018,
Appellees/Defendants counsel filed his Second Motion to
Dismiss Appeal. On June 4th, 2018, the Appellant/Plaintiff
files his Response to Second Motion to Dismiss Appeal. On
August 29th, 2018, docketed by clerk office on August 30th,
2018, a panel of Kitchens, P.J. King and Maxwell, JJ issue a
Order dismissing Appeal alleging that it is a interlocutor
and never addressed the Appellant response claim that it
was filed under Mississippi Code of Ann & 11-1-17, without
having to use the word final. On August 29th, 2018,
docketed by clerk office on August 30th, 2018, a panel of
Kitchens, P.J. King and Maxwell, JJ issue a Order dismissing
Appeal alleging that it is a interlocutor appeal and never
addressed the Appellant response claim that it was filed
under Mississippi Code of Ann & 11-1-17, without having
to address Appellant response claim that it was filed
under Mississippi Code of Ann & 11-1-17, without having
5

to use the word final. On September 4th, 2018, the
Petitioner filed his Petition for Rehearing in the Mississippi
Supreme Court. That on November 14th, 2018, the
Mississippi Supreme Court denied Petitioner Petition for
Rehearing. That on January 23rd, 2019, the Petitioner filed
his First Petition for Writ of Certiorari with this Court. That
on April 15th, 2019, this Court denied Petitioner first
Petition for Writ of Certiorari. That on April 23rd, 2019,
Petitioner filed his Second Motion to Alter or Amend
Judgment, with the Chancery Court, that was docked that
by the clerk that same day. That on April 25th, Judge
Dewayne Thomas signs Order denying Plaintiff Second
Amended Motion to Alter or Amend Judgment, which was
docked by the clerk that same day. The Plaintiff/Appellant,
pro se filed Third Notice of Appeal on May 21st, 2019,
which was docketed that same day by the clerk office. On
October 18th, 2019, Plaintiff/Appellant files his Certificate
of Compliance with the Chancery clerk's office, which was
not docketed until October 22nd, 2019. The Mississippi
Supreme Court clerk office dockets on October 25th, 2019,
Plaintiff/Appellant Certificate. On November 13th, 2019,
the Mississippi Supreme Court Clerk docket's the present
Trial Court Docket. November 13th, 2019, the Chancery
Clerk's office issues a Statement of Cost of Appeal
Certificate and latest Docket. The Mississippi Supreme
Court Clerk Office Appellant Notice of Briefing Schedule
Order on December 16th, 2019. On January 9th, 2020,
Appellant/Plaintiff files his Motion for Enlargement of
Time to file Appellant Brief. The Mississippi Supreme Court
clerk office issue a Notice of January 9th, 2020 granting
motion for extension of time to file Appellant Brief until
February 26th, 2020. On February 24th, 2020, the Appellant
Brief and Record Excerpts with the Mississippi Supreme
Court. On February 24th, 2020, the Appellees counsel files
his third Motion to Dismiss Appeal. That on March 3rd,
6

2020, the Appellant files his third response to Motion to
Dismiss Appeal. On June 12th, 2020, the Mississippi
Supreme Court dismisses Appeal for the third time without
addressing the issues raised on appeal. On June 18th, 2020,
the Plaintiff/Petitioner files his Petition for Rehearing, with
the Mississippi Supreme Court. On September 24th, 2020,
the Mississippi Supreme Court issues a Order denying the
Petition for Rehearing.

REASONS FOR GRANTING THE PETITION
ARGUMENT 1

THE SUPREME COOURT COURT ERRED IN DISMISSING THE
APPELLANT/PETITIONER APPELLANT BRIEF SEE MISS.
CODE ANN & 11-1-17.
That on September 8th, 2016, the Appellant filed his
Motion to Alter or Amend Judgment under M.R.C.P.
59(e)(Vol, 1., pg. 104) that is a final motion for the court to
review all err before you file a notice of Appeal. That on
September 13th, 2016, the Chancery Court Judge denied
that motion to alter or amend judgment (Vol.l., pg.107),
that is a final order and only the Supreme Court can review
all legal matters in this case. Again, on October 5th, 2017,
the Appellant/Plaintiff pro se file Amended Motion Alter or
Amend Judgment. On November 7th, 2017, the Chancery
Judge Dewayne Thomas issue a Order denying Appellant
Amended to Alter or Amend Judgment without ever
addressing his not using the word Final his first order and
in his second Order. On April 23, 2019, files his Second
Amended Motion to Alter or Amend Judgment, with
Chancery Court. That on April 25th, 2019, Judge Dewayne
7

Thomas signs Order denying Plaintiff Second Amended
Motion to Alter or Amend Judgment. See Mississippi Code
Ann, & 11-1-17, Time for rendition of final decree; right of
appeal where decree not entered with required time,
states:
All chancellors or judges of the chancery and circuit courts
of the state of Mississippi shall render their final decree on
any and all matters taken under advisement by such
Chancellors or judges not later than six(6) months after the
Date when sane are taken under advisement or no later
than Six (6) months after the date on which the
chancellors or Court or judge set as a date for the final
brief or memoranda of authority is required to be filed on
or as to the cause taken Under advisement, which ever is
the latest date after the date On which the cause or case is
taken under advisement. In the Event a final decree has
not been entered within the six months Period
hereinbefore referred to, then any party to said law suit
shall have the right to appeal on the record as otherwise
provided The same as if a final decree has been rendered
adversely. Said Appeal shall be to the supreme court of the
State of Mississippi And shall be treated as a preferred
case over other cases except Election contests.
Also see BOARD OF PARDONS V. ALLEN. 107 S. Ct.
2415, in deciding that this statute created a
constitutionally protected liberty interest, the Court found
significant its mandatory language the use of the word
"shall" Meaning: shall have the right to appeal is
mandatory. Also KINGDOMWARE TECHNOLOGIES. INC V.
U.S.. 136 S. Ct. 1963(2015) at 1977
Congress use the word "shall" demonstrates That &
8127(d) mandates the use of the Rule of Two in all
8

contracting before using competitive procedures. Unlike
the word "may", which implies discretion the word "shall"
usually connote a requirement. Again in ALABAMA V.
BOZEMAN . 121S. Ct. 2079(2001) at 2085. "The word shall
is ordinarily the language of command."
That the Appellant has already file complaint with
the Mississippi Commission on Judicial Performance and a
complaint with the State Bar and a Complaint with the
Mississippi Ethics Commission, because the Appellees
counsel with the help of District Attorney Robert Smith
and his character witness Tony Davis, in his criminal trial,
who was a defendant in STRINGER V. AMERICAN BANKERS
INSURANCE COMPANY OF FLORIDA, 822 So. 2d 1011, are
behind Chancery Judge Thomas, trying to have Appellant
arrested on June 1st, 2016 hearing, with promise that they
with Ed Peters will give him campaign funds and that they
control the black vote in Jackson and Hinds County area.
(See Exhibit "7") submitted by Appellees counsel on June
1st, 2016 hearing. Through these individuals they have
gotten the chancery clerk, and chancery judge to not
follow the rules of civil procedures dealing with a
defendant who is in Default. See (Vol, 2., Trs., pgs 44-45),
you will see the chancery judge allowed Appellees counsel
to go on a fishing expedition in a case that was in default.
See NATIONAL SHOPMEN PENSION FUND V, RUSSUELL.
283 F.R.D. 16, Where as here there is a complete "absence
of any request to set aside the default or suggestion by the
defendant that it has a meritorious defense, it is clear that
the standard for default has been satisfied. Also see Fifth
Circuit of Appeal, in BHTT ENTENTERTAINMENT.
INCORPORATED. V. BRICLHOUS CATE & LOUNGE. ET AL.
858 F. 3d 310 and this case addresses the very same issue
that is before this Court! In the alternative, BHTT contends
that Brickhouse's failure to contest the default judgment

9

first in the district court means that all its issues in the
court of appeals are waived, based on our well-known
practice of generally not considering arguments not first
made before the district court. See if this court will look at
the motion to dismiss, on the first page it tells procedural
background. If you see Appellee's counsel does not even
have the January 5th, 2016 date listed, being that default
being filed and counsel enters a appearance on January
6th, 2016, above facts show that District Attorney Robert
Smith who has been indicted on obstruction of justice in a
criminal case, show evidence that they were obstructing
justice in civil cases to! For more about Chancery Judge
performance, see Appellant Brief docketed in March 24th,
2017. The cases in the Appellee motion to dismiss IN RE
ESTATE OF LEWIS. 135 So. 3d 202 and WILLAMS V.
WISON'S MOBILE HOME SERV.. 887 So. 2d 830, did not
apply to this case because this is appeal from a Rule 59(e)
motion to alter or amend judgment and were, they were
both appeals from a single issue and in both cases the
judge was not given a second chance to review the issues
on appeal! Under Mississippi Rule of Civil Procedure that is
all that is required for a final judgement. On April 25th,
2019, Order by Chancery Judge Thomas, you will see Judge
Thomas uses the word Finally in his last Order and
therefore a Final Judgment has been made. See COAHOMA
COUNTY BANK & TRUST CO. V. FEINBERG. 128 So. 2d 562,
at 565, Evidence, section 136 p.141. The party who has the
burden of proof may be determined by considering which
would succeed if no evidence was offered, by examining
what would be the effect of striking out the record the
allegation to prove. The appellee's are in default since
January 5th, 2016. (Vol. 1., pg.86) Chancery Judge Patricia D
Wise understood this fact and would not allow the
Appellee's counsel to raise a defense, so with the help of
District Attorney Robert Smith he got her to recuse herself
10

and Appellee's counsel went judge shopping for one who
would allow him to break the rules, when a default
judgment prohibits of raising a defense. See SOUTHE V.
UNITED STATES. 40 F.R.D. 374: Upon motion made by a
party before responding to a pleading of if no responsive
pleading is permitted by these rules upon motion made by
a party within 20 day s after service of the pleading, upon
him or upon the court's own initiative at any time the
court may order stricken from any pleading any
insufficient immaterial impertinent, or scandalous matter.
As for Appellee's counsel claim that Terminal Resource,
was not served. Counsel entered a appearance for
Crexendo the parent company, who counsel states is over
all the named business in the complaint, and it Crexendo
that pays all damages in all civil action for all the other
named defendants named in the complaint! So, all of them
have been served under the rules of civil procedure. That
finely I want to point out that Justice Michael K. Randouph
granted a stay in the briefing schedule after the Appellees
brief was due and that Justice Jess H. Dickinson, Justice P.J.
Coleman and Justice Beam, JJ., granted a Motion to
Dismiss some one Hundred, fifty days after the Appellant
Brief was filed. I state on the record I question the Judicial
Integrity of these Justice's! Because they are not
interpreting the facts of the case, or the rules of civil
procedure, or the case law cited as they are written! In
fact, they did not even cite any facts, any rule of civil
procedure, or any case law to support their ruling that has
no merit.

ARGUMENT 2

11

THE CHANCERY COURT DENIED THE APPELLANT/PLAINTIF
THE RIGHT TO REPRESENT HIMSELF IN CIVIL ACTION AND
TO BE TREATED THE SAME AS OTHER APPELLANT/
PLAINTIFF WHO HAVE CAME BEFORE THE
CHANCERY COURT ON A DEFAULT JUDEMENT IN
VIOLATION OF THE SIX AND FOURTEETH AMENDMENT
OF THE UNITED STATES CONSTITUTION.

That on September 8th, 2016 the Appellant Charles
Stringer, pro se filed a Motion to Alter or Amend
Judgment, (Vol. I, Dct., pgs. 104-106). On page 105,
stating: The above facts stated in the first three
paragraph is a violation of the Plaintiff Charles L. Stringer
Sixth and Fourteenth Amendment to United States
Constitution, that his right to represent himself in civil
legal matter and him being treated the same as other
Plaintiffs who have come before this Court on a default
issues, this will be proven by this Court stating on the
record how many default cases have come before him
since being a judge and how many of them he has
dismiss on these grounds. That on November 12th, 2015,
Appellant Pro Se Charles L Stringer files a complaint on
grounds of Fraud and Unjust Enrichment (Vol 1, Dct., pgs.
4-13). That some fifty-four days after that Appellant
served the defendants with process, the Appellant files
with the clerk office January 5th, 2016, Request for
Default Judgment, Affidavit for Default Judgement and
Affidavit as to Military Services, (Vol. 1, Dct. Pgs 16-18).
see NATIONAL SHOPMEN PENSION FUND
V. RUSSELL, 283 F.R.D 16, at 19

12

Where as here there is a complete absence of any request
to set aside the default or suggestion by the defendant
that it has a meritorious defense, it is clear that the
standard for default judgment has been satisfied.
Also See BHTT ENTRTTAINMENT INCORPORATED. V.
BRICHOUD CAFE & LOUNGE ET AL 858 F. 3d 310 In the
alternative, BHIT contends that Brickhouse's failure to
contest the default judgment first in the district court
means that all its issues in the court of appeals are
waived based on our well-known practice of generally
not considering arguments not first before the district
court. As this Court, will see through this Appeal, not
once did the Appellee/Defendant counsel ever seek to
file a motion to set aside default judgment that was
entered on January 5th,2016. That on March 23rd, 2016,
Appellant request a hearing before Chancery Court Judge
Patricia D. Wise on hearing for a hearing on two motions
for permeant injunction (Vol. 1 Dct. 21-23), requesting
that the defendants put Appellant/Plaintiff website back
on the Internet without a fee and to stop charging
Appellant/Plaintiff a fee ever month to process credit
cards, see JULES JORDON VIDEO: INC. V. 144942
CONAOLO. INC. 617 F.3d 1146(9th,Cir.2010) at 1159,
A defaulted defendant cannot answer the complaint
unless and until the defaulted is vacated. At Judge Wise
hearing on March 23rd,2016, {VOL 2, Cr., Trs pages 2-22),
you will see that all she does is harass the
Appellant/Plaintiff pro se about the fact he is not a
attorney and he does not have a right to represent himself
in her court. This is a violation of 28 U.S.C. A. & 1654. and
in violation of the Six and Fourteenth Amendment of the
United State Constitution. Again in JULES

13

JORDON I DE INC, at 1159 it also cannot respond to
request for admission at least until the default is vacated.
See DYASTEEL V. AZTEC INDUSTRIES 611 So.2d 977
Judgment Debtor that did not file answer to creditor's
complaint did not appeal within meaning of rule
governing applications for default judgment and was not
entitled to notice of creditor's application for default,
absent evidence showing intent on part of debtor to
defend; debtor did not hire attorney before entry of
judgment and did not respond to any creditor's
settlement offers. Rule Civil Proc. 55(b). That on that same
date March 23rd, 2016, Judge Wise also told
Appellant/Plaintiff pro se in the middle of his hearing to
stop talking and step aside and allow Attorney John
Reeves to have his hearing at the same time as
Appellant/Plaintiff was having his and I had to sit through
a hearing were the witness claimed to be a DEA agent and
he was being ask about how much he was paying his xwife in child support. When he started telling him he
could not remember and each time Reeves ask a question,
he would say I don't remember. I Appellant/Plaintiff sat
there for some twenty minutes before they ask the Judge
to let him go to his hotel and get all the documents, he
had to be able to answer their questions. At (Vol. 2,
Cr.,Trs.21-22) that is where the court reporter says
(Recess) were the above facts took place. When she come
back to Appellant/Plaintiff pro se she recuses, herself and
issues a Order (Vol. 1, Cr. Dct. 66) This cause came before
this Court on Motion for Permanent Injunction. The Court,
finding that it has jurisdiction over the person and subject
matter herein and considering all other facts and matters
relative thereto, finds that it will be necessary and proper
for Chancellor Patricia D. Wise to recuse herself from any
further actions in this case. Judge Wise would rather
recuse herself from my case before she would have to

14

rule in Appellant favor! See TRAGUTH V. ZUCK. 710 F. 2d
90(1983) at 95

The district court also abused its discretions in failing to
take Into account Zuck pro se status, Implicit in the right
to selfrepresent is an obligation on the part of the court
to make reasonable allowances to protect pro se litigants
from inadvertent for forfeiture of important rights
because of their lack of training.
That as I (Plaintiff/Appellant) was leaving the
Chancery court that March 23rd, 2016, outside the
courthouse, I saw the man who claim to be going to his
hotel room to get documents, the DEA agent and he was
waiting on me, I just kept walking. But the point has been
since my November 16th, 1988, arrest in Stringer v. State?
627 So. 2d 326,1 have had to deal with Defendants in
Stringer v. Peters, 464 Fed. Appx. 309, demanding they be
allowed to have meeting with the judges in my Justice,
Municipal, County, Circuit, Chancery, State and Federal
courts without Plaintiff/Appellant being present! That
when there was a hearing in any of my criminal cases or
lawsuits cases filed, demanding that they not rule in
Plaintiff/Appellant favor. Because I am not like them, I do
not try to have my friends and family arrested or help
them set them up like they did me! Again, on March
23rd,2016, that had been what happen with Chancery
Judge Wise. That the child custody hearing was just a
stage act and all they were doing was trying to get the
present lawsuit dismiss! But Judge Wise, just decide to
recuse herself rather than be put in the middle criminal
conspiracy that date back to 1988. That John Reeves and
this DEA agents are new parties in Peters' case. That for

15

this Court to understand why the Plaintiff/Appellant is
acting Por Se, we must go back to his criminal case
Stringer v. State. 627 So. 2d 326, In that case Attorney
Thomas Lowe, had conspired with Ed Peters and other
defendants in the Rico case to send Plaintiff/Appellant to
prison to this date of filing this appeal. But if you read the
case, you will see that I stood up and raised up my hand
and ask for a mistrial, because my attorney was
misrepresenting Plaintiff/Appellant. See ANDREWS V.
BECHLTEL POWER CORP. 780 F.2d 124, Which states:
Section 1654 comes to us freighted with history; it call
back visions of days when much litigation especially on
the law side", was carried on by strong self-reliant citizens
who preferred to appeal to the sense of justice of "the
country rather than entrust their causes to lawyers
trained in the intricacies of the law. Again, in Stringer v.
State, this Court wrote:
We take this opportunity to caution this bench and bar of
growing number of reversals caused by inefficient,
ineffective or unprofessional conduct by counsel. Retrials
of criminal proceedings are extremely costly to the
taxpayers of this State. It is not beyond the authority of
this Court to assess the entire costs of a new trial to the
attorney whose conduct made the trial necessary in those
cases where this occurs. Personal liability for this cost may
well be imposed by this Court in the future and it will be
done with an even hand, Applies both to the private
attorney and the attorney re- Presenting the State.
This Court is increasingly unwilling to cast the burden of
incompetence on innocent taxpayers and Consider this
notice to the bench and bar that in the future We may not
do so.

16

It because of this above statement and the fact
that every attorney Plaintiff/Appellant tried to hire find
out that there is a conspiracy by Ed Peters and the other
defendants in that case against him that make them
withdraw from his case and will not try and seek out
federal agents to help Plaintiff/Appellant get justice in his
cases! Now back to case at hand, this is not the first time
the Plaintiff/Appellant has gotten a default judgment, see
Stringer v. Campbell et al, 30 F. 3d 1492 and Stringer v.
McAdory, et al, 42 F. 3d 642, both are unpunished
opinions. Judge Tom Lee and Judge William Barbour first
made the Defendant counsels in those cases first file a
motion to set aside default Judgments, before their
counsels could files answer and affirmative defenses in
these cases. Again see Stringer v. American Bankers
Insurance Company of Florida, et al, 822 So. 2d 1011, in
that case Judge James Graves would not allow counsel to
file answer and affirmative defenses, until a motion to
vacate or to set aside default judgment was filed, see
NATIONAL SHOPMEN PENSION FUND V. RUSSELL, 283
F.R.D 16, at 19
Where as here there is a complete "absence of any
request to set aside the default or suggestion by the
defendant that it has a meritorious defense, it is clear
that the standard for default judgment has been
satisfied.
In MARSHALL V. BAGGETT 616 F.3d 849(8th, Cir.2010) It is
nearly axiomatic that when a default judgment is entered

17

facts alleged in the complaint may not be later contested.
See Thomson v. Wooster, 114 U.S. 104,. This is a violation
of 28 U.S.C. A. & 1654 and of the Plaintiff/Appellant Sixth
and Fourteenth Amendment to United States
Constitution, that his right to represent himself in civil
legal matter and him being treated the same as other
Plaintiffs.
ARGUMENT 3
THE CHANCERY COURT ERRED CITING BAKER &
McKENZlE, LLP V. EVENS 123 so. 3d 387(Miss.2013) at
401 IS NOT ONE DIGEST KEY IN THAT CASE THAT
ADDRESS A RULE MOTION AND IT STATES COMPLAINTS
FILED IN OTHER STATES UNDER DIFFERENT LEGAL
CLAIMS IS NOT COLLATERAL ESTOPPEL.
That on September 1st, 2016, Chancery Court Judge
Dewayne Thomas issued a Order of Dismissal
under Rule 12(b)(6) of the Mississippi Rules of Civil
Procedure, (Vol. 1, pgs.101-103). At 102-103,
Accordingly, this Court must grant the Defendants'
Motion to Dismiss and dismiss the Plaintiffs
Complaint for failure to state a claim upon which relief
can granted under Rule 12(b)(6). Such dismissal shall be
with prejudice. That on March 11th, 2016 the
Defendants/Appellees filed Defendants' Answer and
Affirmative Defenses to Complaint, (Vol. 1, pgs. 27-33)
and Motion to Dismiss Plaintiffs Complaint with
Prejudice, (Vol. 1, pgs. 34-41). That on March 17th, 2016,
the Plaintiff/Appellant filed his Response to Defendants
Motion to Dismiss, (Vol. 1, pgs. 70-85). As stated in the
Response: First this Court will see that the Defendants
are in Default and have been since January 5th, 2016,
18

some 73 days and the Defendants counsel filed a Notice
of Appearance on January 6th, 2016, so it, not like he
didn't know of fact! Because of the Default, counsel for
the Defendants cannot file any motion to dismiss,
because of this fact, he must first deal with the issue of
Default and it is not Plaintiff job to tell him this fact or
how to deal with it. Counsel cannot object to any
pleadings filed by the Plaintiff or any statements made by
Plaintiff in open Court on our hearing on March 23rd,
2016, he can only watch what take place and report to
the Defendants what has taken place. That all
Defendants counsel did at that hearing March 23rd,2016.
Because Chancery Judge Wise Would not allow it. But on
our June 1st, 2016 hearing before Chancery Judge
Thomas, he allowed Attorney Weldy to raise a Motion to
Dismiss, when he was in Default, something he knew
Chancery Judge Wise would not allow, (Vol 2, pgs.n2554). See SHAKMANET AL V. DEMOCRATIC
ORGONIZATION OF 00K. 533 F. 2d 344, at 352 Moreover
plaintiffs alleged in their petition that Cardilii possessed
actual notice of the judgment. Respondents failure to
deny this allegation in their answer deemed as admission
under Fed R.Civ. P.8(d). Again if this Court would review
BAKER & MCKENZIE LLP V. EVENS 123 so. 2d
387(Miss.2013), at 401, To succeed on a motion for a
judgment as a matter of law, a party must prove that
"the pleadings, depositions, answers to interrogatories
and admissions on file, together with affidavits, if any
show that there is no genuine issue of material fact. In
Baker this Court stated only after discovery can a Judge
make a ruling of doctrine of collateral estoppel and res
judicata. Had Chancery Judge Thomas read all of Baker
he would have known he could not grant such a ruling
without discovery and he was procedure bar based on
that fact alone! Again, if we go by Baker ruling on this

19

(

(

I

case, it support the Plaintiff/Appellant, how a class action
lawsuit filed by attorneys Christopher Brown and Glen
Reid in Circuit Court of Shelby County Tennessee, (Vol. 1,
at 49-56) on the grounds of how many hours person
work on a website over the telephone. Could give the
Chancery Court Judge the idea it applies to my case, were
the Plaintiff/Appellant never collected a dime in that
lawsuit! See Baker at 402, Even if the nonparty is
considered to be in privity, the issues must be "the
specific issues actually litigated." Marcum v. Mississippi
Valley Gas Co. Inc., 672 So. 2d 730(Miss.l996). This is a
Fraud and Unjust Enrichment action that has never been
filed in any other courts and was filed the first time in
Chancery Court on November 12th,2015, (Vol. 1, pgs. 413). That on September 10th, 2015, in New Orleans,
Louisiana before Arbitrator Robert Redfearn, Jr.
Appealing at the hearing were Charles Stringer
("Claimant"), and Jeffery Korn, on behalf of Storesonline,
Inc. and its parent; Credxendo, Inc. (Respondents"),
(Exhibit 4, from Trial Exhibits List). It states in the next
paragraph what the ground for the Arbitration were.
That none of those grounds are what this lawsuit were
filed on, that being Fraud and Unjust Enrichment! See
(Vol. 1, pgs. 11-12) First case of Action, that because the
Arbitrator Robert Redfearn Jr., did not address the other
issues raised, reimbursement of certain fees for hosting
his website, domain registration and credit card
processing that he is being improperly charged, that
Storesonline had told Charles Stringer if he finished his
Website by the end of 2008* they would pay him ten
thousand dollars as a spokesman for Storesonline at one
of their Internet Marketing Workshop. A undefined
amount for his website being down for about one year,
the above facts amount to Fraud and Unjust Enrichment,
since it would cost tens of thousands of dollars to have to
20

That on September 8th, 2016, the Plaintiff/Appellant filed a
motion to Alter or Amend Judgment (Vol. 1, pgs-104-105). The
Chancery Court erred in not addressing Plaintiff motion to
Strike Answer And Affirmative Defendants under MRCP 12(f)
because the defendants are in default, as of January 5th, 2016,
and because of this fact, the defendants counsel is not allowed
to file any pleadings, until this issue is addressed by the court.
On March 11th, 2016, some 120 days since process was issued
and some 66 days after default was entered, the defendants
counsel filed his Answer to Complaint and his Motion to
Dismiss, (Vol. 1, pgs. 27-42). see SHAKMAN ETALV.
DEMOCRATIC ORGONIZATION OF COOK 533 F. 2d 344,
at 352 Moreover plaintiffs alleged in their petition that
Cardilli possessed actual notice of the judgment,
Respondents failure to deny this allegation in their
answer deemed as admission under Fed R.Civ. P. 8(d).
That on March 17th, 2016 the Plaintiff files his Response
to Defendants counsel motion to dismiss, addressing all
the defendants counsel claims and stating on the record
that all the claims raised by defendants' counsel were in
fact frivolous, (Vol. 1, pgs. 70-74). That on March 23rd,
2016, Judge Patricia D. Wise issues a Order stating: This
cause came before this Court on Motion for Permanent
Injunction. The Court, finding that it has jurisdiction over
the person and subject matter herein, and considering all
other facts and matters relative thereto, finds that it will
be necessary and proper for Chancellor Patricia D. Wise
to recuse herself from any further actions in this case,
(Vol. 1, pg. 86). That on April 19th, 2016, the plaintiff files
two motion to strike on the grounds that the defendants
counsel motion to dismiss is prohibited on grounds that
the defendants are in default and that it violates 902,
1001 and 1002 of Mississippi rules of Evidences (Vol. 1,
pgs. 87-88). see GEORGE B. GLIMORE CO. V. GARRETT
582 So. 2d 387 at 396 This circuit court correctly
22

excluded them. There was no showing that these were in
fact true and correct copies of VA Inspection report on
the construction of the house. That since the filing of
these motion to strike, the defendants counsel has not
filed any response to them. See LIPTION INDUSTRIES INC.
V. RALSTON PURINA CO. 670 F. 2d 1024, at 1030, Rule
8(d) of Miss. Rules of Civil Procedure provides Averments
' in pleading to which a responsive pleading is required are
admitted when not denied in the responsive pleading.
That on June 1st, 2016, the Plaintiff had a hearing before
Chancery Judge Dewayne Thomas, on his two Motion for
Permanent Injunctions, not once has the defendants
counsel filed any response to these motions and
defendants counsel in open court on June 1st, 2016, did
not object to this Court in granting these Injunctions, See
Miss. Rule of Civil Procedure 8(d) Effect of Failure to
Deny. Averments in a pleading to which a responsive
pleading is required, other than those as to the amount
of damages, are admitted when not denied in the
responsive pleading. I want to incorporate this fourth
argument in support of my first argument. This is a
violation of 28 U.S.C. A. & 1654 and of the
Plaintiff/Appellant Sixth and Fourteenth Amendment to
United States Constitution, that his right to represent
himself in civil legal matter and him being treated the
same as other Plaintiffs

ARGUMENTS
THE CHANCERY COURT JUDGE ERRED IN NOT GRANDING
PLAINTIFF SECOND MOTION TO STRIKE MOTION TO
DISMISS UNDER MRCP. 12(f).

23

That on September 8th, 2016, the Plaintiff/Appellant file
a motion to Alter or Amend Judgment,
(Vol. 1, pgs.104-105). The Chancery Court erred in not
addressing Plaintiff motion to Strike Motion to
Dismiss, under MRCP 12(f) because the defendants are in
Default, as of January 5th, 2016 and because, the
defendants counsel is not allowed to file any pleadings,
until this issue is addressed by the court.
On March 11th, 2016, some 120 days since process was
issued and some 66 days after default was
entered, the defendants counsel files his Answer to
Complaint and his Motion to Dismiss, (Vol. 1, pgs.
2742). See SHAKMAN ET AL V. DEMOCRATIC
ORGONIZATION OF COOK 533 F. 2d 344, at 352 Moreover
plaintiffs alleged in their petition that Cardilli possessed
actual notice of the judgment, Respondents
failure to deny this allegation in their answer deemed as
admission under Fed R.Civ. P. 8(d). That on March 17th,
2016 the Plaintiff files his Response to Defendants
counsel motion to dismiss, addressing all the defendants
counsel claims and stating on the record that all the
claims by defendants' counsel were in fact frivolous, (Vol.
1, pgs. 70-74). That on April 19th, 2016, the plaintiff files
two motion to strike on the grounds that the defendants
counsel motion to dismiss is prohibited on grounds that
the defendants are in default and that it violates 902,
1001 and 1002 of Mississippi rules of Evidences (Vol. 1,
pgs. 87-88). see GEORGE B. GLIMORE CO. V. GARRETT
582 so. 2d 387 at 396 This circuit court correctly excluded
them. There was no showing that these were in fact true
and correct copies of VA Inspection report on the
24

construction of the house. That since the filing of these
motion to strike, the defendants counsel has not filed any
response to them, see LIPTIQN INDUSTRIES, INC. V.
RALSTON PURINA CO., 670 F. 2d 1024, at 1030, Rule 8(d)
of Miss. Rules of Civil Procedure provides Averments in
pleading to which a responsive pleading is required are
admitted when not denied in the responsive pleading.
That the plaintiff Charles L Stringer took that stand on
June 1st, 2016 and testified that he in fact owns the
website and he owns the credit card processing program
and entered into evidence, Certificate for Confidential
Storesonline Merchants Only, stating: Plaintiff Charles L.
Stringer does not have to pay these monthly fees, that
they are being waved. After the Plaintiff rested, the
defendants counsel tried to make all kinds of legal claims.
The Plaintiff objected to all his claims and to any
documents he tried to be entered under Mississippi Rule
of Evidence, see COAHOMA COUNTY BANK & TRUST CO.
V. FEINBERG .128 So. 2d 562 at 565 Evidence, section 136
p.141. The party who has the burden of proof may be
determined by considering which would succeed if no
evidence was offered, and by examining what would be
the effect of striking out of the record the allegation to
prove. See SOUTH V. UNITED STATES.40 F.R.D. 374 at 375
Upon motion made by a party before responding to a
pleading or if no responsive pleading is permitted by
these rules upon motion made by a party within 20 days
after service of the pleading, upon him or upon the
court's own initiative at any time the court may order
stricken from any pleading any insufficient immaterial,
impertinent, or scandalous matter. The Plaintiff objection
that the defendants counsel tried to entered evidence
25

and attached exhibits to his motion to dismiss, spoliated
evidence, see DOWDLE BUTANE GAS CO. INC. V. MOORE
831 so. 2d 1124(Miss.2002) at 1127 The inference
entitles the non-offending party to an instruction that the
jury may infer that spoliated evidence is unfavorable to
the offending party. I want to incorporate this fifth
argument in support of my first argument. This is a
violation of 28 U.S.C. A. & 1654 and of the Plaintiff/
Appellant Sixth and Fourteenth Amendment to United
States Constitution, that his right to represent himself in
civil legal matter and him being treated the same as
other Plaintiffs.
CONCLUSION
In conclusion, this Court should grant the Petition For A
Writ of Certiorari and issue a order striking all
Respondent pleadings from the record, with instructions
that the Respondents are not to be allowed to file any
pleading because they have been in default since January
5th, 2016. And grant any other issue this Court should find
to be deem fit and proper in the above styled case.
Respectfully Submitted,

Charles Lavel Stringer

26

